No. ______
In the

Supreme Court of the United States
__________________
POWER ANALYTICS CORPORATION,
Petitioner,
v.
OPERATION TECHNOLOGY INC.,
SCHNEIDER ELECTRIC USA, INC.,
Respondents.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Federal Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
Robert F. Ruyak
Counsel of Record
Amadou K. Diaw
Jeffrey Frye
RuyakCherian LLP
1700 K Street NW
Suite 810
Washington, DC 20006
(202) 838-1560
robertr@ruyakcherian.com

Korula T. Cherian
1936 University Avenue
Suite 350
Berkeley, CA 94704
(510) 944-0190

Counsel for Petitioner
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
In Alice Corp. v. CLS Bank International, 573 U.S.
208 (2014), this Court prescribed standards and a mode
of analysis for determining patent eligibility under 35
U.S.C. § 101. Alice left to the Federal Circuit the
responsibility to implement those standards and guide
the application of that analysis nationwide. In the five
years since Alice, an avalanche of litigation challenging
the patent eligibility of inventions across a wide swath
of technologies has affected multiple industries. The
relatively few precedential Federal Circuit decisions on
patent eligibility have not provided uniformity. This
lack of uniformity has been exacerbated by the Federal
Circuit’s routine issuance of Rule 36 affirmances in
§ 101 cases even where, as in this case, numerous
issues are raised on which prior decisions of the
Federal Circuit have not provided consistent guidance.
Given the current environment in which issues of
patent eligibility that are of vital significance to district
judges, innovators and litigants are decided, the
question presented is:
Has the Federal Circuit correctly implemented the
standards for patent eligibility set forth in 35 U.S.C.
§ 101 and Alice v. CLS Bank?

ii
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the
caption. OSIsoft, LLC was a defendant in the district
court proceedings but is not a party to this appeal.
Petitioner Power Analytics Corporation’s parent
corporation is Causam Enterprises.
RULE 14.1(b)(iii) STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the abovecaptioned case in this Court.
Power Analytics Corp. v. Operation Technology Inc.
d/b/a ETAP, Schneider Electric USA, Inc., and
OSISoft, LLC, Case No. 8:16-cv-1955-JAK-FFM (C.D.
Cal.). The central district of California entered
judgement regarding Petitioner’s patent claims in this
matter on December 21, 2017.
Power Analytics Corp. v. Operation Technology Inc.
d/b/a ETAP and Schneider Electric USA, Inc., Case
No. 2018-1428 (Fed. Cir.). The Federal Circuit entered
judgment in this matter on January 15, 2019. The
Federal Circuit denied Petitioner’s combined petition
for panel rehearing and rehearing en banc on
March 21, 2019.

iii
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . ii
RULE 14.1(b)(iii) STATEMENT . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED . . . . . . . . . 1
INTRODUCTION AND
STATEMENT OF THE CASE . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE PETITION . . . . 7
A. The Federal Circuit’s Post-Alice jurisprudence
has created an inconsistent and unworkable
thicket of case law. . . . . . . . . . . . . . . . . . . . . . . . 10
a. The role of claim interpretation and the
specification in the patent eligibility analysis
is not clear . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
b. The role of factual analysis in determining
patent eligibility is not clear . . . . . . . . . . . . . 17
c. There is inconsistency among Federal Circuit
opinions addressing similar technology . . . . 20

iv
B. The Federal Circuit’s excessive use of Rule 36
judgments exacerbates the unsettled and
unpredictable nature of the patent eligibility law
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
a. Appellate decision-making, and thus uniform
resolution of the law, degenerates when
judgments are issued without written
opinion in cases raising unsettled legal
questions . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
b. Rule 36 judgments provide no guidance to
direct possible further proceedings or new
innovation . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
APPENDIX
Appendix A Judgment in the United States Court
of Appeals for the Federal Circuit
(January 15, 2019) . . . . . . . . . . . . App. 1
Appendix B Partial Judgment Pursuant to Fed. R.
Civ. P. 54(b) in the United States
District Court for the Central District
of California
(December 21, 2017) . . . . . . . . . . . App. 3

v
Appendix C Order Regarding Plaintiff’s Motion for
Reconsideration of Order Granting
Partial Motion for Summary
J u d g m ent of I n v a l i d i t y , o r
Alternatively for an Order to Sever
Patent Counts (I-IV) from Non-patent
Counts (V-XV) (Dkt. 327) in the
United States District Court for the
Central District of California
(December 7, 2017) . . . . . . . . . . . . App. 6
Appendix D Order Regarding Defendants’ Motion
for Partial Summary Judgment as to
Invalidity (Dkt. 161) in the United
States District Court for the Central
District of California
(July 13, 2017) . . . . . . . . . . . . . . App. 27
Appendix E Order Denying Petition for Panel
Rehearing and Rehearing En Banc in
the United States Court of Appeals for
the Federal Circuit
(March 21, 2019) . . . . . . . . . . . . . App. 44

vi
TABLE OF AUTHORITIES
CASES
Aatrix Software, Inc. v. Green Shades Software,
Inc.,
890 F.3d 1354 (Fed. Cir. 2018) . . . . . . . . . . . . . . 12
Alice Corp. v. CLS Bank International,
573 U.S. 208 (2014). . . . . . . . . . . . . . . . . . . passim
Amdocs (Isr.) Ltd. v. Openet Telecom, Inc.,
841 F.3d 1288 (Fed. Cir. 2016) . . . . . . . . . . . . 8, 15
Berkheimer v. HP Inc.,
890 F.3d 1369 (Fed. Cir. 2018) . . . . . . . . 12, 16, 17
Berkheimer v. HP Inc.,
881 F.3d 1360 (Fed. Cir. 2018) . . . . . . . . . . passim
Bilski v. Kappos,
561 U.S. 593 (2010). . . . . . . . . . . . . . . . . . . . . . . . 7
CLS Bank Int’l v. Alice Corp. Pty.,
685 F.3d 1341 (Fed. Cir. 2012) . . . . . . . . . . . . . . . 8
Data Engine Technologies LLC v. Google LLC,
906 F.3d 999 (Fed Cir. 2018) . . . . . . . . . . . . . . . 15
DDR Holdings, LLC v. Hotels.com, L.P.,
773 F.3d 1245 (Fed. Cir. 2014) . . . . . . . . . . . . . . 20
Diamond v. Diehr,
450 U.S. 175 (1981). . . . . . . . . . . . . . . . . . . . . . . . 7
Dig. Media Techs., Inc. v. Hulu, LLC,
No. 4:16cv245-MW/CAS, 2017 U.S. Dist. LEXIS
179660 (N.D. Fla. July 3, 2017) . . . . . . . . . . . . . 24

vii
Dig. Media Techs., Inc. v. Hulu, LLC,
742 Fed. Appx. 510 (Fed. Cir. 2018). . . . . . . . . . 24
Elec. Power Grp., LLC v. Alstom S.A.,
830 F.3d 1350 (Fed. Cir. 2016) . . . . . . . . . . passim
Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327 (Fed. Cir. 2016) . . . . . . . . . . . . . . 15
Front Row Techs., LLC v. NBA Media Ventures,
LLC,
204 F. Supp. 3d (D.N.M. 2016). . . . . . . . . . . . . . 13
Hikma Pharmaceuticals USA Inc. v. Vanda
Pharmaceuticals Inc.,
139 S. Ct. 1368 (2019). . . . . . . . . . . . . . . . . . 14, 15
HP Inc. v. Berkheimer,
139 S. Ct. 860 (2019). . . . . . . . . . . . . . . . . . . . . . 14
Immunocept, LLC v. Fulbright & Jaworski, LLP,
504 F.3d 1281 (Fed. Cir. 2007) . . . . . . . . . . . . . . 22
Improved Search LLC v. AOL Inc.,
170 F. Supp. 3d (D. Del. 2016) . . . . . . . . . . . . . . 12
Intellectual Ventures I LLC v. Symantec Corp.,
838 F.3d 1307 (Fed. Cir. 2016) . . . . . . . . . . . . 8, 16
Interval Licensing LLC v. AOL, Inc.,
896 F.3d 1335 (Fed. Cir. 2018) . . . . . . . . 11, 12, 23
Kajeet, Inc. v. Qustodio, LLC, SA
CV18-01519 JAK (PLAx) (C.D. Cal, Feb. 28,
2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

viii
Mayo Collaborative Services v. Prometheus
Laboratories, Inc.,
566 U.S. 66 (2012). . . . . . . . . . . . . . . . . . . . . . . 7, 8
McRO Inc. v. Bandai Namco Games Am. Inc.,
837 F.3d 1299 (Fed. Cir. 2016) . . . . . . . . . . . . . . 18
Nautilus, Inc. v. Biosig Instruments, Inc.,
572 U.S. 898 (2014). . . . . . . . . . . . . . . . . . . . . . . . 6
SRI Int’l, Inc. v. Cisco Sys.,
918 F.3d 1368 (Fed. Cir. 2019) . . . . . . . . 21, 24, 25
Smart Sys. Innovations, LLC v. Chi. Transit Auth.,
873 F.3d 1364 (Fed. Cir. 2017) . . . . . . . . . . . . . . 12
Thales Visionx, Inc. v. U.S.,
850 F.3d 1343 (Fed. Cir. 2017) . . . . . . . . . . . . . . 15
U.S. v. Adams,
383 U.S. 39 (1966). . . . . . . . . . . . . . . . . . . . . . 6, 16
Ultramercial, Inc. v. Hulu, LLC,
772 F.3d 709 (Fed. Cir. 2014) . . . . . . . . . . . . . . . 20
STATUTES
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
35 U.S.C. § 101 . . . . . . . . . . . . . . . . . . . . . . . . . passim
35 U.S.C. § 101(b) (proposed). . . . . . . . . . . . . . . . . . 14
35 U.S.C. § 102 . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 7, 17
35 U.S.C. § 103 . . . . . . . . . . . . . . . . . . . . . . . 4, 5, 7, 17

ix
OTHER AUTHORITIES
ABA, AIPLA and IPO Offer Revisions to Clean Up
the §101 Mess, https://www.ratnerprestia.com/
2017/ 08/02/aba-aipla-and-ipo-offer-revisions-toclean-up-the-§101-mess/ . . . . . . . . . . . . . . . . . . . 13
Can Legislation Solve the Patent-Eligibility Mess,
https://www.b2ipreport.com/swip-report/canlegislation-resolve-the-patent-eligibility-mess/ . 13
David O. Taylor, Amending Patent Eligibility, 50
U.C. Davis L. Rev. 2149 (2017) . . . . . . . . . . . . . 13
Docket Navigator, Alice Through the Looking Glass,
the Impact of Alice Corp. Pty. v. CLS Bank
International, 134 S. Ct. 2347 (2014) on the
patent enforcement landscape (2018),
http://brochure.docketnavigator.com/alice/ . . . 8, 9
Federal Circuit Judge Calls for a Fix to the
“Abstract Idea” Mess: Part 3,
https://www.ipmvs.com/filewrapper/federalcircuit-judge-calls-for-a-fix-to-the-abstract-ideamess-part-3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Federal Judicial Center, Biographical Directory of
Article III Federal Judges (available at:
https://www.fjc.gov/history/judges/search/
advanced-search). . . . . . . . . . . . . . . . . . . . . . . . . 22

x
Supplemental Statement of Judge Paul R. Michel
(Ret.) to the United States House of
Representatives Committee on the Judiciary,
September 12, 2017, https://innovationalliance.
net/wp-content/uploads/ 2017/09/SupplementalStatement-of-Paul-R-Michel-Sept-12-2017.pdf . 10
“Eligibility Guidance Quick Reference Sheet” (2014,
updated 2015), https://www.bitlaw.com/patent/
section-101-index.html#pto . . . . . . . . . . . . . . . . 23
USPTO website, https://www.uspto.gov/patent/
laws-and-regulations/examination-policy/
subject-matter-eligibility . . . . . . . . . . . . . . . . . . 23
Paul R. Gugliuzza and Mark A. Lemley, Can a
Court Change the Law by Saying Nothing?, 71
Vanderbilt L. Rev. 766 (2018) . . . . . . . . . . . . . . . 9
Raymond A. Mercado, Resolving Patent Eligibility
and Indefiniteness in Proper Context: Applying
Alice and Aristocrat, 20 Va. J.L. & Tech. 240
(2016). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Sens. Tillis and Coons and Reps. Collins, Johnson,
and Stivers Release Draft Bill Text to Reform
Section 101 of the Patent Act (available at:
https://www.tillis.senate.gov/2019/5/sens-tillisand-coons-and-reps-collins-johnson-and-stiversrelease-draft-bill-text-to-reform-section-101-ofthe-patent-act). . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Still No Path Out of the 101 Swamp?,
https://www.bilskiblog.com/2018/12/still-no-path101-swamp/ (Dec. 10, 2018) . . . . . . . . . . . . . . . . 13

xi
The State of Patent Eligibility in America: Part III
Subcommittee Hearing (available at:
https://www.judiciary.senate.gov/meetings/thestate-of-patent-eligibility-in-america-part-iii). . 14

1
Power Analytics Corporation respectfully petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Federal Circuit
in this case.
OPINIONS BELOW
The Rule 36 disposition of the court of appeals
(App., infra, 1-2) is reported at 748 Fed. Appx. 334. The
opinion of the district court granting summary
judgment on patent invalidity (App., infra, 27-43) is
reported at 2017 U.S. Dist. LEXIS 216875. The opinion
of the district court denying reconsideration (App.,
infra, 6-26) is unreported.
JURISDICTION
The judgment of the court of appeals was entered on
January 15, 2019. App., infra, 1-2. A timely petition for
rehearing was denied on March 21, 2019. App., infra,
44-45. The jurisdiction of this Court is invoked under
28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
35 U.S.C. § 101. Inventions Patentable
Whoever invents or discovers any new and useful
process, machine, manufacture, or composition of
matter, or any new and useful improvement thereof,
may obtain a patent therefor, subject to the conditions
and requirements of this title.

2
INTRODUCTION AND
STATEMENT OF THE CASE
The law regarding patent eligibility under § 101
suffers from a lack of certainty and uniformity in the
wake of this Court’s opinion in Alice Corp. v. CLS Bank
International, 573 U.S. 208, 217 (2014).
This
uncertainty has led to a dramatic increase in litigation
involving § 101 and widespread confusion at the
USPTO and among judges—at the district court and
appellate levels—and litigants. The Federal Circuit’s
routine issuance of Rule 36 affirmances in § 101 cases
has also added to the uncertainty because the
summarily upheld district court opinions, such as the
opinion in this case, are inconsistent with earlier
Federal Circuit opinions.
The uncertainty in the law and frequent Rule 36
affirmances are posing practical difficulties for
individuals and organizations across the patent
ecosystem. Judges have defined the state of the law as
a “morass” and characterized the controlling analysis
as an exercise in “I know it when I see it.” Other judges
have remarked that the law regarding patent eligibility
“has descended into chaos.” Unfortunately, these
characterizations are accurate and many of the Federal
Circuit’s post-Alice opinions—and frequent summary
affirmance under Rule 36—have only magnified the
problems. This Court should take the issue up to
provide the U.S. Patent System with the certainty that
it needs regarding the threshold question: What is
patentable?
The patents at issue in this case are directed to
systems and methods used in the operation of complex

3
power systems like power systems that are used in
data centers. More specifically, the asserted claims are
directed to a scalable hardware architecture and
specific processes that operate to generate new data in
the form of previously unavailable system-wide realtime and real-time equivalent information that may be
used to perform in-depth analyses of power systems.
Prior to the inventions recited by the asserted patents,
this real-time information was not available to power
system operators. By using the patented inventions,
power system operators are able to monitor hundreds
and even thousands of power system components—in
real-time—through the selective placement of sensors
on a designated set of power system components.
The patented inventions have significant real-world
applications and make power systems safer and more
efficient. Using the patented technology, power system
operators can see arc flash risk develop and react
before catastrophic events occur. Operators can more
accurately predict system failures and determine when
to replace equipment before failures occur. Operators
can also accurately predict how system modifications
would affect power systems using real-time operating
data from the monitored systems themselves.
Petitioner Power Analytics Corporation sued
Respondents Operation Technology Inc. d/b/a ETAP
and Schneider Electric USA, Inc. for infringement of
138 claims of four U.S. Patents, Nos. 7,693,608,
7,729,808, 7,286,990, and 7,840,395 in the United
States District Court for the District of Delaware. On
Respondents’ motion the case was transferred to the
United States District Court for the Central District of

4
California which granted partial summary judgment of
invalidity of all asserted claims under 35 U.S.C. § 101.
The district court performed its § 101 analysis of
Petitioner’s 138 asserted claims, spanning four patents,
on the basis of a single “representative” claim it
isolated sua sponte in contravention of the Federal
Circuit’s current guidance regarding representative
claims. See Berkheimer v. HP Inc., 881 F.3d 1360, 1365
(Fed. Cir. 2018). In reaching its sua sponte holding
regarding representative claims, the district court
ignored the express language of the claims and the
specifications. Even Respondents did not assert that a
single claim was representative before the district
court.
The district court stated that Petitioner’s arguments
that the invention contained new technical elements
intended to improve the operation of power systems,
“conflated” patent eligibility under 35 U.S.C. § 101 with
anticipation under § 102 and obviousness under § 103.
Petitioner’s arguments regarding this point were also
supported by an expert declaration, but the district
court dismissed it as part of its improper conflation
holding. The district court found the use of thresholds,
calibration, and synchronization in the context of the
control of power systems were “abstract, generic steps
that describe desired functions or outcomes, but do not,
individually or in combination, constitute ‘inventive
concepts.’” Subsequently, without having either
construed the claims or pursued any meaningful steptwo inquiry, the court decided, on the basis of analogy
with claims found invalid in Elec. Power Grp., LLC v.
Alstom S.A., 830 F.3d 1350 (Fed. Cir. 2016) that all of

5
the asserted claims were invalid under 35 U.S.C. § 101.
App., infra, 38-43. Petitioner filed a motion for
reconsideration of the order on invalidity, which was
denied.
On appeal, Petitioner argued the following four
points of law on which the district court’s finding of
ineligibility conflicts with prior decisions of the Federal
Circuit:
1. The district court failed to apply the governing
“clear and convincing” standard in evaluating evidence
submitted regarding patent eligibility to prove a patent
is invalid. See Berkheimer at 1368 (“The question of
whether a claim element or combination of elements is
well-understood, routine and conventional to a skilled
artisan in the relevant field is a question of fact. Any
fact, such as this one, that is pertinent to the invalidity
conclusion must be proven by clear and convincing
evidence.”). The district court stated that, not only is
eligibility “ultimately a question of law,” but plaintiff
had also “not identified what specific questions of
material fact were presented by the motion for summary
judgment.” Respondents had not identified any facts
relevant to the step-two analysis in their motion so there
was no basis for Petitioner to identify any such facts.
Petitioner did advance arguments based on the patents’
specifications that the asserted claims recited inventive
concepts. Petitioner also submitted an expert declaration
regarding this issue to the district court. The district
court improperly excluded the declaration from its
analysis on the basis that it addressed issues relevant to
§§ 102 and 103 analyses in contravention of the Federal
Circuit’s Berkheimer opinion. The Federal Circuit

6
summarily affirmed the district court’s infirm opinion in
this respect which is inconsistent with controlling Alice
step two jurisprudence.
2. Although the patent specifications described in
detail the algorithms and equations applied in the
claims, which should have established their patent
eligibility under step one, the district court stated that
“the claims are stated broadly and concern abstract
concepts, and that the disclosure in the specification
outlining a specific technological manner in which the
abstract concept may be implemented should not be
read into the claims.” But this holding is inconsistent
with this Court’s opinion in U.S. v. Adams, 383 U.S. 39,
48-49 (1966) and its progeny. See e.g., Nautilus, Inc. v.
Biosig Instruments, Inc., 572 U.S. 898, 908 (2014) (“in
assessing definiteness, claims are to be read in light of
the patent’s specification and prosecution history.”).
3. The district court did not follow the established
analysis for determining whether a claim is
representative and there were in fact, important
differences among the 138 asserted claims that were
argued by Petitioner. Berkheimer at 1365 (“Courts may
treat a claim as representative in certain situations,
such as if the patentee does not present any
meaningful argument for the distinctive significance of
any claim limitations not found in the representative
claim or if the parties agree to treat a claim as
representative.”). The Federal Circuit’s summary
affirmance of the district court’s opinion—which sua
sponte identified a sole representative claim—is
inconsistent with this controlling authority from
Berkheimer. The district court’s analysis on this issue,

7
and the Federal Circuit’s summary affirmance thereof
resulted in error at steps one and two of Alice.
4. The district court misconstrued the governing
§ 101 patentability analysis as set forth in, inter alia,
Diamond v. Diehr, 450 U.S. 175 (1981); Bilski v.
Kappos, 561 U.S. 593, (2010); and Mayo Collaborative
Services v. Prometheus Laboratories, Inc., 566 U.S. 66
(2012). The Federal Circuit’s summary affirmance of
the district court’s assertion that held that Petitioner’s
arguments regarding the claimed inventive concepts
somehow “conflated” patent eligibility under 35 U.S.C.
§ 101 with anticipation under § 102 and obviousness
under § 103 is inconsistent with this Court’s
jurisprudence in Mayo. See Mayo, at 90 (“the §101
patent-eligibility inquiry and, say, the §102 novelty
inquiry might sometimes overlap.”).
REASONS FOR GRANTING THE PETITION
This petition should be granted because the federal
courts and, more generally, the entire patent
community need guidance in the application of 35
U.S.C. § 101. This Court has held under § 101 that
“laws of nature, natural phenomena, and abstract ideas
are not patentable.” Mayo, at 70. The Court
recognized, in Alice, that all inventions implicate laws
of nature, natural phenomena, or abstract ideas, and
expanded upon this conception by stating that what is
patent-eligible is really the “applications of such
concepts to a new and useful end.” Alice, at 217
(internal quotation marks omitted). Although Alice
referred to a specific “framework for distinguishing
patents that claim laws of nature, natural phenomena,
and abstract ideas from those that claim patent-eligible

8
applications of those concepts” set forth in Mayo, Alice,
at 217, in practice the application of such a test has
proven to be very difficult.
One key aspect of the patent eligibility analysis is
the role of the specification. While some panels of the
Federal Circuit have held that the specification must
be considered to analyze the claims in a § 101 analysis
(see Amdocs (Isr.) Ltd. v. Openet Telecom, Inc., 841 F.3d
1288, 1306 (Fed. Cir. 2016)), other cases have held the
exact opposite. See e.g., Intellectual Ventures I LLC v.
Symantec Corp., 838 F.3d 1307, 1322 (Fed. Cir. 2016).
The Federal Circuit has exacerbated this problem by
relying heavily on Fed. Cir. Rule 36 to issue summary
dispositions without opinion in this wholly unsettled
area of the law, injecting additional uncertainty into
what is an unworkable environment for patentees,
litigants, and district judges alike.
Indeed, this is a pressing issue because Alice
challenges have become commonplace in district courts.
According to Docket Navigator’s Special Report, Alice
Through the Looking Glass, the Impact of Alice Corp.
Pty. v. CLS Bank International, 134 S. Ct. 2347 (2014)
on the patent enforcement landscape (“Alice Report”)1
the volume of § 101 challenges exploded after Alice.
According to the Alice Report: “In the four and a
half years prior to the Federal Circuit’s initial Alice
decision [CLS Bank Int’l v. Alice Corp. Pty., 685 F.3d
1341 (Fed. Cir. 2012)] district courts addressed subject
matter eligibility in only 69 decisions.” Alice Report at
1

Available at http://brochure.docketnavigator.com/alice/ (accessed
on June 13, 2019)

9
2. From the Federal Circuit’s opinion in Alice through
the end of 2018, the number of § 101 challenges
increased by many orders of magnitude:
subject matter eligibility has been raised in 480
cases against 1,497 patents and has generated
more than 1,200 district court decisions. At the
same time, the PTO has issued no fewer than 17
different guidelines for determining subject
matter eligibility since Alice.
Alice Report at 2 (emphasis added). The USPTO,
concerned by the inconsistency in the Federal Circuit’s
opinions regarding patent eligibility also issues memos
that address recent Federal Circuit patent eligibility
opinions.2
In turn, the Federal Circuit has been inundated
with appeals that raise § 101. In the first three years
after this Court’s decision in Alice (until June 19,
2017), the Federal Circuit decided 104 cases on the
issue, finding patent ineligibility in 96 cases. In 54 of
those cases, the Court issued Rule 36 affirmances, all
of which upheld findings of ineligibility.3
According to data compiled by the USPTO, between
June 20, 2017 and February 2019, the Federal Circuit
decided at least an additional 44 § 101 cases.4 The
2

https://www.uspto.gov/patent/laws-and-regulations/examinationpolicy/subject-matter-eligibility (accessed on June 13, 2019)
3

Paul R. Gugliuzza and Mark A. Lemley, Can a Court Change the
Law by Saying Nothing?, 71 Vanderbilt L. Rev. 766, 767 (2018).

4

See id. at n.2.

10
USPTO data does not track Rule 36 affirmances of
§ 101 opinions “because they provide little benefit to
examiners.” Id.
The issuance of judgments without written opinions
in this unsettled area of the law creates numerous
practical problems and prejudices litigants because a
losing party, such as Petitioner, might have lost an
appeal on the basis of any subset of the arguments
presented. Without a written opinion, the party cannot
know whether it may continue to press any of the
issues encompassed within the dispute or alter its
patent drafting strategy on future innovations at the
USPTO to account for issues identified by the court.
A. The Federal Circuit’s Post-Alice jurisprudence
has created an inconsistent and unworkable
thicket of case law
Judges, scholars, legal commentators, and
practitioners alike have all lamented the current status
of the law regarding patent eligibility. Former Chief
Judge of the Federal Circuit Paul Michel testified
before the House Judiciary Committee that “[p]atenteligibility law under § 101 has descended into chaos
after a string of Supreme Court decisions.”
Supplemental Statement of Judge Paul R. Michel (Ret.)
to the United States House of Representatives
Committee on the Judiciary, September 12, 2017. 5 He
added that this “chaos” is “devastating American

5

Available at: https://innovationalliance.net/wp-content/uploads/
2017/09/Supplemental-Statement-of-Paul-R-Michel-Sept-122017.pdf (accessed on June 17, 2019).

11
business, including high tech, manufacturing, biotech,
and pharmaceutical industries.” Id.
Sitting judges on the Federal Circuit have also
commented on the unsettled nature of the law. In a
partial concurrence and dissent, Judge Plager
characterized the “abstract idea” element of the patent
eligibility analysis as a “definitional morass.” Interval
Licensing LLC v. AOL, Inc., 896 F.3d 1335, 1350 (Fed.
Cir. 2018) (Plager, J. concurring in part and dissenting
in part). Judge Plager aptly observed that “[t]he law…
renders it near impossible to know with any certainty
whether the invention is or is not patent-eligible.” Id.
at 1348.
Judge Plager described the problem facing district
judges:
from the viewpoint of decisional law, the
‘abstract ideas’ idea falls short in the sense of
providing a trial judge with confidence that the
judgment will be understood by the judges who
come after, since only the judges who have the
final say in the matter can say with finality that
they know it when they see it.
Id. at 1351. Judge Plager also noted the practical
effects of the uncertainty surrounding patent eligibility
jurisprudence:
[t]here is little consensus among trial judges (or
appellate judges for that matter) regarding
whether a particular case will prove to have a
patent with claims directed to an abstract idea,
and if so whether there is an ‘inventive concept’
in the patent to save it. In such an environment,

12
from the viewpoint of counsel for the defense,
there is little to be lost in trying the § 101
defense.
Id. at 1354-55 (emphasis added).
In his partial concurrence and dissent in Smart Sys.
Innovations, LLC v. Chi. Transit Auth., 873 F.3d 1364,
1377 (Fed. Cir. 2017) (Linn, J. concurring in part and
dissenting in part), Judge Linn correctly noted that
“the abstract idea exception” is “almost impossible to
apply consistently and coherently.”
More recently, in Aatrix Software, Inc. v. Green
Shades Software, Inc., 890 F.3d 1354, 1360 (Fed. Cir.
2018) (Lourie, J. and Newman, J. concurring in the
denial of the petition for rehearing en banc), Judge
Lourie remarked that the law governing patent
eligibility “needs clarification by higher authority,
perhaps by Congress, to work its way out of what so
many in the innovation field consider are § 101
problems.”
The judges reiterated the Court’s plea for help
calling for “higher intervention, hopefully with ideas
reflective of the best thinking that can be brought to
bear on the subject.” Berkheimer v. HP Inc., 890 F.3d
1369, 1376 (Fed. Cir. 2018) (Lourie, J. and Newman, J.,
concurring in the denial of the petition for rehearing en
banc).
District court judges have also commented on the
current state of the law since the Alice opinion. See
Improved Search LLC v. AOL Inc., 170 F. Supp. 3d 683
(D. Del. 2016) (“In other words, even though most of
the patent claims now being challenged under § 101

13
would have survived such challenges if mounted at the
time of issuance, these claims are now in jeopardy
under the heightened specificity required by the
Federal Circuit post-Alice”); Front Row Techs., LLC v.
NBA Media Ventures, LLC, 204 F. Supp. 3d 1190
(D.N.M. 2016) (“Alice has had an extraordinary impact
on patent litigation… The Federal Circuit has
attempted to provide guidance on the Alice test in this
developing and unstable environment…”).
Federal judges are not alone in their criticism of the
current state of the law regarding § 101. The legal
community has uniformly criticized the unpredictable
§ 101 jurisprudence6 and Congress is acutely aware of
the problem.

6

See, e.g., Amending Patent Eligibility, 50 U.C. Davis L. Rev. 2149,
2151 (“patent law - and in particular the law governing patent
eligibility - is in a state of crisis.”); Resolving Patent Eligibility and
Indefiniteness in Proper Context: Applying Alice and Aristocrat, 20
Va. J.L. & Tech. 240, 249 (“In fact, the current doctrinal mess has
prompted calls from mainstream figures in the patent community
to consider abandonment of § 101 altogether. Given the situation
in district courts today, one can see why.”); Still No Path Out of the
101 Swamp?, https://www.bilskiblog.com/2018/12/still-no-path-101swamp/ (Dec. 10, 2018); ABA, AIPLA and IPO Offer Revisions to
Clean Up the §101 Mess, https://www.ratnerprestia.com/2017/
08/02/aba-aipla-and-ipo-offer-revisions-to-clean-up-the-§101-mess/
(accessed June 17, 2019); Federal Circuit Judge Calls for a Fix to
the “Abstract Idea” Mess: Part 3, https://www.ipmvs.com/
filewrapper/federal-circuit-judge-calls-for-a-fix-to-the-abstractidea-mess-part-3 (accessed June 17, 2019); Can Legislation Solve
the Patent-Eligibility Mess, https://www.b2ipreport.com/swipreport/can-legislation-resolve-the-patent-eligibility-mess/ (accessed
June 17, 2019).

14
On May 22, 2019, a proposed bipartisan bicameral
bill to amend 35 U.S.C. § 101 was published. See Sens.
Tillis and Coons and Reps. Collins, Johnson, and
Stivers Release Draft Bill Text to Reform Section 101 of
the Patent Act.7 In a provision that directly relates to
Petitioner’s case, proposed § 101(b) of the bill recites:
“Eligibility under this section shall be determined only
while considering the claimed invention as a whole,
without discounting or disregarding any claim
limitation.”8
The Senate Judiciary Committee’s Subcommittee on
Intellectual Property conducted three hearings in June
2019 on the need for amending § 101 with the most
recent hearing occurring on June 11, 2019. 9
This Court’s attention has been directed to § 101
problems by numerous cert petitions filed since Alice,
most recently in Berkheimer, and Hikma
Pharmaceuticals USA Inc. The Court recently invited
the Solicitor General to file briefs expressing the views
of the United States in both of these cases. See HP Inc.
v. Berkheimer, 139 S. Ct. 860 (2019); Hikma
7

Available at: https://www.tillis.senate.gov/2019/5/sens-tillis-andcoons-and-reps-collins-johnson-and-stivers-release-draft-bill-textto-reform-section-101-of-the-patent-act) (accessed on June 14,
2019.
8

See § 101(b) (available at: https://www.tillis.senate.gov/services/
files/E8ED2188-DC15-4876-8F51-A03CF4A63E26).
9

See The State of Patent Eligibility in America: Part III
Subcommittee Hearing (available at: https://www.judiciary.
senate.gov/meetings/the-state-of-patent-eligibility-in-america-partiii) (accessed on June 14, 2019).

15
Pharmaceuticals USA Inc. v. Vanda Pharmaceuticals
Inc., 139 S. Ct. 1368 (2019). Both petitions are still
pending.
a. The role of claim interpretation and the
specification in the patent eligibility
analysis is not clear
The interpretation of claims is fundamental to the
U.S. patent system. Without properly understood
claims, no substantive analysis may occur. This
principle should apply equally to the patent eligibility
analysis, but Federal Circuit opinions on this issue are
inconsistent. Some Federal Circuit panels held that for
the purposes of a § 101 analysis, claims must be
analyzed in light of the specification. Other panels have
held the exact opposite, that the claims must be
reviewed in isolation to determine their patentability.
The panel in Amdocs performed its “examination of
the claim in light of the written description.” Amdocs,
841 F.3d at 1306. It was the panel’s review of the
specification that “revealed that many of these
components and functionalities are in fact neither
generic nor conventional individually or in ordered
combination.” Id. See also Data Engine Technologies
LLC v. Google LLC, 906 F.3d 999, 1008 (Fed Cir. 2018)
(“When considered as a whole, and in light of the
specification, representative claim 12 of the ’259 patent
is not directed to an abstract idea”); Thales Visionx,
Inc. v. U.S., 850 F.3d 1343, 1347-48 (Fed. Cir. 2017)
(noting the importance of the specification in recitation
of the asserted claims); Enfish, LLC v. Microsoft Corp.,
822 F.3d 1327, 1335 (Fed. Cir. 2016) (analyzing claims
“in light of the specification”).

16
This Court has stated that “it is fundamental that
claims are to be construed in the light of the
specifications, and both are to be read with a view to
ascertaining the invention.” Adams, 383 U.S. at 48-49
(internal citations omitted). It is incontrovertible that
patents must be understood—construed—in order to
assess their eligibility under § 101.
But other Federal Circuit panels have deviated from
this framework and instead have analyzed the
eligibility question based solely on the language of the
claims. See e.g., Intellectual Ventures I LLC, 838 F.3d
at 1307 (“The district court erred in relying on
technological details set forth in the patent’s
specification and not set forth in the claims to find an
inventive concept”).
The inconsistent jurisprudence regarding this issue
prejudices litigants. Consider, for example, the
contradictory approaches the Federal Circuit took in
two cases currently pending before this Court on
petitions for writs of certiorari. In Berkheimer, the
Federal Circuit examined the specification and
determined that it described an inventive feature that
operated in a “purportedly unconventional” manner.
See Berkheimer at 1369. In sharp contrast, the Federal
Circuit affirmed a judgment in this case where the
district court expressly declined to consult the
specification for guidance as to whether the invention
described routine and conventional activities. See
App., infra, 39-43.

17
b. The role of factual analysis in determining
patent eligibility is not clear
The Federal Circuit’s summary affirmance in this
case in light of its recent Berkheimer opinion
demonstrates another way in which the Federal
Circuit’s lack of guidance has created significant
practical problems in this area of the law. Under step
two of the Alice analysis, Petitioner argued that the
asserted claims were patent-eligible because they
solved specific technological problems in the power
systems industry satisfying the inventive concept test.
Petitioner cited the asserted patents’ specifications and
the declaration of an expert witness—submitted with
Petitioner’s motion for reconsideration—as evidence
that the combination of claim elements satisfied Alice
step two.
Instead of analyzing the facts identified by Power
Analytics, the district court summarily rejected Power
Analytics arguments as conflating patent eligibility
under 35 U.S.C. § 101 with anticipation under § 102
and obviousness under § 103. The district court then
proceeded to summarily invalidate all 138 asserted
claims based on a superficial comparison of a single
“representative” claim to the claims at issue in Electric
Power Group, without considering the underlying facts
unique to this case.
The Federal Circuit addressed the role of factual
analysis in the § 101 context in Berkheimer, less than
two months after the district court decided Petitioner’s
case. In Berkheimer the Federal Circuit stated that:

18
The question of whether a claim element or
combination of elements is well-understood,
routine and conventional to a skilled artisan in
the relevant field is a question of fact. Any fact,
such as this one, that is pertinent to the
invalidity conclusion must be proven by clear
and convincing evidence.
Berkheimer at 1368. Berkheimer issued during the
pendency of Petitioner’s appeal, shining a spotlight on
this issue so important to Petitioner’s case. The parties
addressed Berkheimer in their briefing on appeal.
Nonetheless, the Federal Circuit summarily affirmed
the district court’s opinion without any indication of
the weight it gave to this determinative issue.
As in Berkheimer, Petitioner argued to the district
court that the claims contain an inventive concept
under Alice step two, because the claimed combination
improves the operation of a technological system,
teaching “a technological solution to a technological
problem specific to” power systems. See McRO Inc. v.
Bandai Namco Games Am. Inc., 837 F.3d 1299, 1316
(Fed. Cir. 2016) (“[w]hen looked at as a whole, claim 1
is directed to a patentable, technological improvement
over the existing, manual 3-D animation techniques.
The claim uses… a process specifically designed to
achieve an improved technological result in
conventional industry practice”) (internal citations
omitted). Although the district court here made the
same mistake that triggered reversal in
Berkheimer—ignoring factual issues—the Federal
Circuit simply affirmed without explanation.

19
To underscore how the Federal Circuit’s § 101
decisions prejudice parties, consider how the same
district judge changed his view shortly after granting
summary judgment in this case. Following the Federal
Circuit’s decision in Berkheimer, the district court, in
a case very similar to the one here, acknowledged that
“[i]t is not appropriate to make a determination
regarding patent eligibility until after Plaintiff has had
the opportunity” to file a pleading “that includes
express, factual allegations consistent with the patent
intrinsic record that support its position [that the
patent incorporates an inventive concept] under both
steps of Alice.” Kajeet, Inc. v. Qustodio, LLC, SA CV1801519 JAK (PLAx) (C.D. Cal, Feb. 28, 2019). Although
at least one subsequent litigant was permitted to apply
Berkheimer in the same district court, Petitioner
(whose case was decided on summary judgment several
months before Berkheimer was issued by the Federal
Circuit) did not. Nor did Petitioner get the benefit of
having Berkheimer applied to this case on appeal,
despite expressly arguing for that disposition in the
Federal Circuit. In these circumstances – and
considering the pendency of legislative action that
would affect the eligibility of the relevant patent
claims—this Court should at least hold the petition in
this case until after the Court’s conclusion of the
proceedings in Berkheimer.

20
c. There is inconsistency among Federal
Circuit opinions addressing similar
technology
In addition to the inconsistent framework that the
Federal Circuit has applied to patent eligibility issues,
its ultimate determinations are also irreconcilable. The
Court’s conflicting holdings in Ultramercial, Inc. v.
Hulu, LLC, 772 F.3d 709 (Fed. Cir. 2014) and DDR
Holdings, LLC v. Hotels.com, L.P., 773 F.3d 1245 (Fed.
Cir. 2014) provide a stark example. Although the
inventions at issue in both cases addressed “internetcentric problems,” the inventions at issue in DDR
Holdings were deemed patent-eligible while the
Ultramercial inventions were invalidated. In
attempting to explain the inconsistent results of patent
claims that were extraordinarily similar, the court
drew razor-sharp distinctions that, as a practical
matter, are impossible to discern or apply. The Federal
Circuit stated in DDR Holdings that “[u]nlike the
claims in Ultramercial, the claims at issue here specify
how interactions with the Internet are manipulated to
yield a desired result—a result that overrides the
routine and conventional sequence of events ordinarily
triggered by the click of a hyperlink.” Id. at 1258. But
when the actual language of the claims at issue in DDR
Holdings and Ultramercial are examined side-by-side
there is no rational, predictable distinction between
subject matter that is patent-eligible and subject
matter that is ineligible. Compare DDR Holdings claim
19 at 1249-1250 to Ultramercial claim 1 at 712.

21
A similar conflict exists between the Federal
Circuit’s recent decision in SRI Int’l, Inc. v. Cisco Sys.,
918 F.3d 1368 (Fed. Cir. 2019) and the primary
authority on which the district court relied in granting
summary judgment of ineligibility in this case, Electric
Power Group. In Electric Power Group, the Federal
Circuit held that analyzing information is an abstract
idea. 830 F.3d at 1354.
But in SRI the Federal Circuit ruled at step one
that the information analysis-based SRI claims are
directed to patent-eligible subject matter although the
claim is very similar to the claim at issue in Electric
Power Group:
detecting, by the network monitors, suspicious
network activity based on analysis of network
traffic data selected from one or more of the
following categories: {network packet data
transfer commands, network packet data
transfer errors, network packet data volume,
network connection requests, network
connection denials, error codes included in a
network packet, network connection
acknowledgements, and network packets
indicative of well-known network-service
protocols}….
SRI, at 1373.
The conflicting rulings in SRI (eligible) and Electric
Power Group (ineligible) and the case at bar (ineligible)
underscore yet another fundamental patent law issue
on which the Federal Circuit’s decisions have produced
neither clarity nor uniformity.

22
B. The Federal Circuit’s excessive use of Rule 36
judgments exacerbates the unsettled and
unpredictable nature of the patent eligibility
law
Given the extent to which § 101 eligibility decisions
have generated confusion, uncertainty and
inconsistency, the lack of uniformity has been
magnified by the Federal Circuit’s reliance on Rule 36
for summary disposition. Although Rule 36 may be
appropriate in certain cases where the governing law
is clearly established, the Federal Circuit’s extensive
use of summary affirmances without opinion in the
§ 101 context has been catastrophic.
Congress established the Federal Circuit “to remove
non-uniformity in the patent law.” Immunocept, LLC v.
Fulbright & Jaworski, LLP, 504 F.3d 1281, 1285-86
(Fed. Cir. 2007). But there can be no uniformity if the
94 district courts with over 700 judges10 are free to
decide on their own how to analyze patent eligibility
under Alice due to the lack of consistent guidance from
the Federal Circuit.
The PTO, caught in the indeterminacy of eligibility
law, has attempted to assist its examiners by issuing
and updating multiple guidance bulletins in 2014
(after Alice), 2015, 2016, and 2019, as well as casespecific guidance on selected cases, an “Eligibility
Guidance Quick Reference Sheet” (2014, updated 2015)
and 27 examples from legal proceedings that can be
10

Federal Judicial Center, Biographical Directory of Article III
Federal Judges (available at: https://www.fjc.gov/history/judges/
search/advanced-search) (access on June 17, 2019).

23
used for guidance in specific situations.11 The USPTO
now maintains a specific website that it regularly
updates to keep examiners, practitioners, and
inventors informed regarding the constant changes in
the law of patent eligibility.12
The lack of consistency and coherence in eligibility
law, notorious both on and off the bench, leaves judges
(even appeals court judges), the USPTO, patentees, and
litigants, without any definitive guidance regarding
patentability post-Alice. The Federal Circuit’s routine
use of Rule 36 affirmances in patent-eligibility cases,
like this one, exacerbates these problems.
a. Appellate decision-making, and thus
uniform resolution of the law, degenerates
when judgments are issued without
written opinion in cases raising unsettled
legal questions
The combination of conflicting written opinions, and
conflicting results in apparently similar cases decided
without written opinion, has made the § 101 decisionmaking process rudderless. Instead of reasoned,
comprehensible opinions that resolve and instruct, the
standard for deciding vital questions of patent
eligibility has become “I know it when I see it.” Interval
Licensing at 1351 (Plager, J. concurring-in-part and
dissenting-in-part). This is no exaggeration. Indeed, in

11

https://www.bitlaw.com/patent/section-101-index.html#pto
(access on June 17, 2019).
12

https://www.uspto.gov/patent/laws-and-regulations/examinationpolicy/subject-matter-eligibility (Accessed on June 17, 2019).

24
a case where the district court lamented that “[a]t the
end of the day, it seems that step one remains an
exercise of ‘I know it when I see it,’” the Federal Circuit
affirmed per Rule 36 judgment. Dig. Media Techs.,
Inc. v. Hulu, LLC, No. 4:16cv245-MW/CAS, 2017 U.S.
Dist. LEXIS 179660, at *10 (N.D. Fla. July 3, 2017),
aff’d R. 36, (Fed. Cir. Nov. 13, 2018) 742 Fed. Appx.
510.
Similarly, in this case, the district court issued an
I-know-it-when-I-see-it judgment relying heavily on a
Federal Circuit decision (Electric Power Group) that is
entirely inconsistent with a more recent Federal
Circuit decision (SRI). The dangers to correct decisionmaking are manifest. For example, glossing over the
fact that it had ignored 137 of the asserted claims in its
use of a single representative claim, the district court
stated that “the asserted claims focus on gathering
information…. [t]his type of information gathering, and
analysis has been addressed by the Federal Circuit. It
has held that it falls into a class of claims directed to a
patent-ineligible concept.” (App., infra, 36) (emphasis
added). Notwithstanding the SRI decision that directly
contradicts the Electric Power Group holding and the
district court’s analysis in the case at bar, the Federal
Circuit summarily affirmed.
In addition to ignoring 137 asserted claims, even
the district court’s assessment of the single claim it
analyzed was flawed: the district court 1) never
consulted the specification to understand the meaning
of the claim language, and 2) did not even address all
of the claim elements. In all those respects, the decision

25
conflicts with precedent, yet the Federal Circuit
summarily affirmed.
The lack of consistent precedential opinions
exacerbated by the widespread use of Rule 36, is
conferring on district courts extraordinary latitude to
implement Alice. They have done so in ways that lead
to inconsistency from case to case. The Federal
Circuit’s failure to issue guiding precedent on these
threshold issues has created an unworkable
environment for district judges and litigants alike and
defeats the defining purpose for which the Federal
Circuit was established—to promote uniformity in the
patent laws.
b. Rule 36 judgments provide no guidance to
direct possible further proceedings or new
innovation
The current state of affairs poses other practical
difficulties that a decision by this Court could resolve.
Patentees often return to the USPTO for modifications
to perfect their patent claims in light of judicial rulings.
When patentees like Power Analysis do not receive
definitive guidance from any courts, they cannot know
how to properly modify their claims, or submit new
applications, to overcome any claim deficiencies. This
is an especially critical problem in the power systems
industry where Electric Power Group broadly held that
inventions directed towards the analysis of data are not
patent-eligible. This holding is irreconcilable with the
result in SRI in which another panel of the Federal
Circuit held that claims directed primarily to analyzing
data in an enterprise network to detect suspicious
activity are patent-eligible at step one of Alice. Given

26
these holdings and the lack of controlling guidance
from the Federal Circuit on fundamental aspects of the
patent-eligibility analysis, it is impossible to determine
where the patent eligibility line falls in this industry.
Patent examiners, innovators, judges and litigants
need guidance and the Federal Circuit has not provided
it. This Court should.
CONCLUSION
The petition for a writ of certiorari should be
granted. Alternatively, the Court should consider
holding this petition pending its resolution of
Berkheimer, No. 18-415.
Respectfully submitted,
Robert F. Ruyak
Counsel of Record
Amadou K. Diaw
Jeffrey Frye
RuyakCherian LLP
1700 K Street NW
Suite 810
Washington, DC 20006
(202) 838-1560
robertr@ruyakcherian.com
Korula T. Cherian
1936 University Avenue
Suite 350
Berkeley, CA 94704
(510) 944-0190
Counsel for Petitioner

